VIA E-FILE
November 16, 2020
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Greer, et al v. Mirlis, No. 20-591
Dear Mr. Harris:
I represent respondent Eliyahu Mirlis in the above-captioned matter. The petition for a writ
of certiorari in this case was docketed on October 29, 2020, and the response is currently due on
December 3, 2020. Pursuant to Supreme Court Rule 30.4, Respondent respectfully requests a 30day extension of time up to and including January 2, 2021, within which to file a brief in
opposition. This extension is needed because the attorneys with primary responsibility for
preparation of the brief have previously scheduled commitments.
Thank you for your assistance.
Sincerely,

Antonio Ponvert III
cc:

Counsel of record for petitioner
Thomas J. Sansone, David T. Grudberg, and Amanda C. Nugent.

350 Fairfield Avenue, Bridgeport, CT 06604

203.336.4 421

www.koskoff.com

